No.

In The
Supreme Court Of The United States

HALLMARK CARE SERVICES, INC. ET AL.,
Petitioners,
v.
SUPERIOR COURT OF WASHINGTON FOR THE
COUNTY OF SPOKANE ET AL.,
Respondents.

On Petition for a Writ of Certiorari To The
United States Court of Appeals
For the Ninth Circuit
CERTIFICATE OF WORD COUNT
PETITION FOR A WRIT OF CERTIORARI
JOHN PIERCE
Counsel of Record
505 W Riverside Ave., Ste. 518
Spokane, WA 99201
(509)210­0845
john@lawps.com
Attorney for Petitioners

Certificate of Word Count
As required by Supreme Court Rule 33.1(h), I
certify that the document contains 5131 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 29, 2020, by
s/John Pierce/
JOHN PIERCE
Counsel of Record
505 W Riverside Ave., Ste. 518
Spokane, WA 99201
(509)210­0845
john@lawps.com
Attorney for Petitioners

